                                                                                                I/


                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM


                                                                              11
                                                                                                     I(

Case Number: I04120049                                                                    Page 1 of I



        NSF-OIG received information that an awardee' was under investigation by multiple agencies for
        possible criminal activity that included duplicate awards, payments to ghost employees, fflse
        claims, false statements, obstruction of a federal audit, and numerous immigration issues
        involving employees and their visa status.                                                        $




        Our component of the investigation focused on reviewing the company's NSF awards and
        comparing them to similar awards from other federal agencies. Our investigation identified one
        instance where the company submitted a proposal2to NSF and subsequently received funhing3
        for a project that had already been funded by the Office of Naval ~ e s e a r c h . ~                 I




        Our findings that the company had submitted false statements and false claims in relationship to
        the NSF award were presented to the United States Attorney's office5 and initially acceptkd for
        inclusion with other potential charges being investigated by other agencies. Subsequent follow-
        ups determined that the other agencies involved in the investigation had not been able to put
        together enough evidence for the AUSA to move forward with indictments and the AUSA closed
        the case with no action taken.

        The evidence identified during our investigation indicated that the company's last submission to
        NSF containing a false statement was submitted on December 3 1,2002. The Federal statuFe of
        limitations regarding the charges identified is 5 years and expired on December 3 1,2007.

        Accordingly, this case is closed.




          District of Maryland, Greenbelt, Maryland




SF OIG Form 2 (1 1/02)
                                                                                                                  II
